No.

1-5676
IN THE
SUPREME COURT OF THE UNITED STATES

PATSY N. SAKUMA
(Your name)

PETITIONER PRO SE
vs.

ASSOCIATION OF CONDOMINIUM HOME OWNERS -RESPONDENTS
OF TROPICS AT WAIKELE, BY ITS
BOARD OF DIRECTORS, ET. AL.

I

ON PETITION FOR WRIT OF CERTIORARI
TO THE INTERMEDIATE COURT OF APPEALS
OF THE STATE OF HAWAII

PETITION FOR WRIT OF CERTIORARI

PATSY N. SAKUMA
Petitioner Pro Se
1232 Makaloa Street # 7
Honolulu, HI 96814
808-454-3171

FILED-

At)fi 03 2021
„

i

QUESTIONS PRESENTED
(1) Whether the Intermediate Court of Appeals for the State of Hawaii
improperly applied mootness to dismiss the case by bypassing the federal question
of whether it applied an impermissible offensive use of the collateral order doctrine
to the foreclosure decree to preclude a collateral attack of jurisdiction from the order
confirming sale?
(2) Whether the Intermediate Court of Appeals for the State of Hawaii
improperly applied mootness to dismiss the case by bypassing the federal question
of whether Petitioner's Fourteenth Amendment section rights of one due process
and equal protection were violated by the cumulative effect of the Hawau
foreclosure proceeding, including the impermissible offensive application of the
collateral order doctrine rule to the foreclosure decree to preclude a collateral attack
of jurisdiction from the order confirming sale?

y

\

A

LIST OF PARTIES
[ ] All parties appear in the caption of the case on the cover page
[ X ] All parties do not appear in the caption of the case on the
cover page. A list of all parties in the proceeding in the court
whose judgment is the subject of this petition is as follows:
1. Patsy N. Sakuma, Petitioner (Defendant-Appellant) Pro Se
2. Association of Condominium Homeowners Of Tropics At Waikele, by its board of
directors (Association), Respondent (Plaintiff-Appellee)
3. First Hawaiian Bank (Bank), a Hawaii corporation, Respondent (DefendantAppellee).
RELATED CASE(S)
USDC-Hawaii. l:16-cv-00274-DKW-KJM (OoenY. 9C-16791; 9C-19-16615.
Complaint for federal civil RICO and conspiracy to commit civil RICO; state: damages,
punitive damages, declaratory and injunctive relief, unfair deceptive acts or practices, state
civil RICO, conversion, abuse of process, wrongful foreclosure, and unjust enrichment.
Patsy Naomi Sakuma v. Association of Apartment Owners of the Tropics at
Waikele, Association of Condominium Home Owners of Tropics at Waikele, Milton
M. Mootoka, Love Yamamoto & Motooka, LLC, Motooka Yamamoto & Revere, LLC,
Porter McGuire Kiakona & Chow, LLP, First Hawaiian Bank, Watanabe Ing, LLP,
James S. Kometani, Title Guaranty of Hawaii, Inc., Title Guaranty Escrow
Services, Inc.
Status: Pending filing a petition for writ of certiorari to the United States Court of
Appeals for the Ninth Circuit in No. 19-16615 from the May 22, 2021 Order denying
hearing and hearing en banc. Automatic 60-day extension for total 150 days to file
petition pursuant to the Court's July 19, 2021 Order due to the Covid 19 Pandemic.
Petition new due date: on or before October 19, 2021 (Tues.).
Previous Rulings:
•October 28, 2016 Order Granting Various Defendants' Motions to Dismiss,
alternatively for lack of jurisdiction based on the Rooker-Feldman doctrine and
failure to state a plausible civil RICO claim; 2016 WL 6433.
•December 21, 2017 Memoradum, affirming 10/28/16 Order on different grounds,
lack of jurisdiction based on Rooker-Feldman and alternatively, failure to state a
plausible RICO claim. 9th Cir. No.16-16791; 707 Fed. Appx. 906 (Dec. 21, 2017).
•June 14, 2019 Order Denying Motion for Relief from Judgment and Order.
•July 30, 2019 EO denying leave to file reconsideration of 06/14/19 Order.
USDC-Hawaii: l:08-cv-00502-HG-KSC fclosedl: 9C:16298: 9C-17448.
sakuma v.aoaotropics@waikele_2021ijpp4wc 11

k

Independent Action to reopen the removed state collection action filed by
Tropics (AOAO misnomer), 1RC-01-5514 based on further fraud by AOCH
and its attorneys, and renumbered USDC-Haw. l:02-cv-00147-HG-LEK.
Complaint for further unlawful associational handicap retaliation and
Temporary Restraining Order to enjoin the 2007 foreclosure proceeding in
Circuit Court of the First Circuit of the State of Hawaii, Civ. No. 07-1748.
Patsy N. Sakuma v. Association of Condominium Home Owners of Tropics at
Waikele, Honorable Circuit Judge Karen N. Blondin, and James S. Kometani, state
court appointed foreclosure commissioner.
Rulings:
•January 13, 2009, Order Granting Honorable Karen N. Blondin’s Motion to
Dismiss based on absolute judicial immunity.
•June 3, 2009 Order denying Plaintiffs TRO based on mootness—-Petitioner’s Home
has already been sold.
•October 5, 2010 Memorandum, affirming district court's dismissal of case based on
mootness: appellant pro se's condominium was sold and there is no longer any
controversy as to which relief could be granted. See, Vill. of Gambell v. Babbitt, 999
F.2d 403, 406 (9th Cir. 1993).

sakuma v.aoaotropics@waikele_202lifpp4wc

£2

IV

TABLE OF CONTENTS
Page No.
QUESTIONS PRESENTED

1

LIST OF PARTIES

n

RELATED CASES

n

TABLE OF CONTENTS

IV

TABLE OF AUTHORITIES CITED

IX

OPINIONS BELOW

1

JURISDICTION.

1

CONSTITUTIONAL AND STATUTORY
PROVISIONS INVOLVED............

9

STATEMENT OF THE CASE

11

REASONS FOR GRANTING THE PETITION

25

CONCLUSION.

35

CERTIFICATE OF COMPLIANCE

36

APPENDICES TO PETITION - VOLUME I OF III
Ap. 01-03:
December 18, 2020 Int. Ct. of Appeals for the state
of Hawaii, Summary Disposition Order: Dismissal,
mootness, CAAP No. 16-0000627.
Ap. 04:

January 22, 2021, Intermediate Court of Appeals’
Judgment on Appeal, CAAP No. 16-0000627.

Ap. 05:

May 5, 2021 Hawaii Supreme Court Order
Rejecting Application for Writ of Certiorari, SCWC
No. 16-0000627

Ap.06-07:

August 15, 2020 Circuit Court of the First Circuit
of the State of Hawaii Order Denying March 22,
2020 Order Denying Motion to Vacate.
iv

v'
V

Ap.08-10

March 22, 2016 Order Denying Recon. of Deemed
Denial of June 7, 2012 Rule 59(e) Motion to Vacate
June 10, 2008 Foreclosure Decree & May 29, 2012
Order Confirming Sale, Filed December 8, 2015.

Ap. 11-12:

November 30, 2015 Order of Deemed Denial of
June 7, 2012 Rule 59(e) Motion entered.

Ap. 12.112.2
Ap. 12.3:

January 11, 2013 Order Denying January 7, 2013
Motion for Stay of Appeal, CAAP No. 12-0000870.
Jan. 24, 2012 Order Denying Mandamus Petition
w/o Prejudice, SCPW 12-0001057.

Ap.12.412.8

July 18, 2012 Order Dismissing Appeal of Dec. 13,
2011 Rule 60(b) Motion, CAAP No. 12-0000145.

Ap. 12.9

October 16, 2012 Order Rejecting Application for
Writ of Certiorari, SCWC No. 12-0000145.

Ap. 12.10:

August 3, 2011 Order Dismissing Appeal for Lack
of Jurisdiction, CAAP No. 11-0000054.

Ap. 12.13

August 17, 2011 Order Denying Recon. of August 3
2011 Order; Nov. 22, 2011Order Rejecting
Application for Writ of Certiorari, SCWC 120000054.

Ap. 12.1412.5

**January 11, 2013, Summary Disposition Order,
dismissal, moot, 2015 Haw. App. LEXIS 377.

Ap. 13-20:

December 17, 2013 opinion, Assn of Condominium
Homeowners of Tropics at Waikele v. Sakuma,
131 Haw. 254 (2013); dissent, J. Nakayama.

Ap. 21-26:

April 14, 2015 opinion, Deutsche Bank v. Amasol,
135 Haw. 357 (2015), (clarifying AOCH ex rel. Bd.
of Dir. v. Sakuma, 131 Haw. 254 (2013).

Ap. 26.1*:

July 21, 2015 Summary Disposition Order:
Dismissal, lack of jurisdiction, CAAP No. 120000870; 136 Haw. App. 25, 356 P. 3d 1045.

Ap. 26.4*

November 6, 2015 Order Accepting Application For
Cert., SCWC No. 12-0000870. 2015 WL 6835407.
v

s'
VI

t

Ap. 26.5*26.3:

January 21, 2016, Summary Disposition Order:
Dismissal, Mootness, CAAP No. 12-0000870, 137
Haw. 205, 366 P.3d 1084; 2016 WL 299530.

Ap. 26.7*

November 1, 2016. Order Rejecting Application for
Writ of Certiorari, SCWC No. 12-0000870.

Ap. 27-39:
Ap.39.1*39.4*

Respondent AOCH's Complaint; Civ.No. 07-1487,
filed August 13, 2007; Ex. A Legal Description,
Complaint; Ex. B, 2005 Lien for Assessment,
Legal description.

Ap. 40-46

Respondent First Hawaiian Bank's Answer to
Complaint filed August 13, 2007 and All
Affirmative Statement of Claim; Cert. Serv.

Ap. 47- 48:

First Hawaiian Bank's Amended Certificate of
Service Re: Defendant FHB's Answer &
Affirmative Defenses to Complaint filed August 13,
2007

Ap. 49-51:

May 15, 200 Circuit Judge's Order Denying
Defendant Sakuma’s Non-Hearing Motion for
Continuance re: [AOCH’s SJ, Default Judgment,
Interlocutory Decree of Foreclosure] Hearing on
April 30, 2008; Cert. Serv.

Ap. 52-65:

Findings, Conclusions, Summary Judgment,
Default Judgment, and Interlocutory Decree of
Foreclosure; Ex. A, legal description; Cert. Service,
Judgment, entered on June 10, 2008.

Ap. 66-82:

May 29, 2012, Order Granting AOCH's Motion for
Confirmation of Sale by Commissioner, Allowance
of Costs, Expenses, Commissioner's Fees, Directing
the Conveyance and Distribution of Proceeds For
Writ of Possession and Disposal of Personal
Property Filed on February 1, 2012; Ex. A [legal
description].

Ap.83-87:

July 2, 2012 Distribution Statement and Account of
Commissioner; Ex. A; Cert. Service.
*Caption Page, Dec. 8, 2015 Motion to Vacate.

Ap. 88*:

vi

\
Vll

VOLUME II OF III
Ap. 88*105:

Ap. 106111:

Ap.112:

Ap, 114*132, 132.1132.5 tol48:

Ap. 113* &
App.149168:

*December 8, 2015 Motion to Vacate November 30,
2015 Entry of Automatic Denial Order of June 7,
2012 Rule 59(e) Motion, June 10, 2008 Default
Judgment, Summary Judgment, Interlocutory
Decree of Foreclosure, Certified As A Final
Judgment Under Rule 54(b); May 29, 2012 (sic)
Order Confirming [ThirdJSale, Judgment for
Possession & Writ of Possession.
September 9, 2016 filed Notice of Appeal, CAAP
No. 16-0000627; Ex. A, of August 19, 2016 Order
Denying Motion for Reconsideration of March 22,
2016 Order Denying [December 8, 2015] Motion to
Vacate, filed December 8, 2016 with Circuit Court,
Civ. No. 07-1-1748, CAAP No. 16-0000627.
Letter dated February 6, 2019** from Randall A.
Pinal, Staff Attorney, Intermediate Court of
Appeals, State of Hawaii re: status inquiry on
CAAP No. 16-0000627.
January 30, 2017, Opening Brief, CAAP No. 160000627, Appeal from Circuit Court’s August 15,
2016 Order Denying Petitioner’s April 1, 2016
Motion for Reconsideration of the March 22, 2016
Order Denying Petitioner's December 8, 2015
Motion to Vacate November 30, 2015 Entry of
Order Automatically Denying Petitioner’s June 7,
2012 Rule 59(e) Motion to Vacate May 29, 2012
Orders Confirming Third Sale.
March 23, 2021 Application for Writ of Certiorari
SCWC No. 16-0000627, Caption Page @ Ap. 113*,
Cert, of Service, Appendix; Cert. Service.

Ap.169-200,
201-210:

VOLUME III OF III
Petitioner’s Petition for Writ of Mandamus;
Declaration; Certificate of Service, filed on
November 30, 2012.

Ap. 211221:

August 11, 2011 Motion for Reconsideration of
August 3, 2011 Order Dismissing Appeal for
Vll

I

Vlll

\

untimeliness re: "automatic" denial of September
10, 2010 Rule 59(e) Post-Judgment Motion to
Vacate August 31, 2010 Order Confirming Second
Sale.
Ap.222-224:

April 2, 1986 Recorded Amfac Certificate re:
Zoning Change from Agricultural District to Urban
District, one of 26 missing exception to title to
Exhibit A legal description to Petitioner's Tropics
Home.

Ap.225-226:

July 25, 2021, CBS News.com, Kristopher J.
Brooks, MONEYWATCH, 7:18 a.m., "Eviction,
Foreclosure Moratorium Ending."

Ap.227-228:

Honolulu, HI, Dept, of Budget & Fiscal Savings,
Real Property Assessment Division, 08/13/15 Sales
History of 94-1016 D Maiau St., Honolulu, HI.

Ap.229-239:

July 2, 2012 Commissioner's Quitclaim Apartment
Deed, to Two of Third Buyers; Ex. A.

Ap. 240-251

July 2, 2012 Quitclaim Apartment Deed, Two of
Three Buyers to Third Buyer Calhan.

Ap. 252-253

Hawaii Revised Statute Sec. 667-51; 2003 Hawaii
legislature notes re: Beneficial of Hawaii, Inc. v.
Casey & appellate review of judicial foreclosure
orders.

Ap. 254

Hawaii Rules of Circuit Court: Rule 7 (1997).

Ap.255-256

August 10, 2021 Letter from Michael Duggan for
Scott S. Harris, Clerk, U.S. Supreme Court, Office
of the Clerk re: Returning 08/03/21, 60-day
extension from date of letter.

Vlll

IX

4

TABLE OF AUTHORITIES CITED
CASES

PAGE NO.

Arizona v. California, 460 U.S. 605, 618 (1983)
Ashcroft v. Iqbal,
556 U.S. 662 (2009)

6

31

Assn'n. of Condominium Homeowners of Tropics at
Waikele v. Sakuma,
131 Haw. 254, 318 P.3d 94 (2013)...........................
Bank of America v. Panzo, CAAP 14-0001356,
2017 WL 1194002.............................................
Beneficial Hawaii Inc. v. Casey,
98 Hawaii 159, 45 P.3d 359 (2002)

7, 20

34

4, 11, 27, 28, 29, 31,32

Behrens v. Pelletier,
516 U.S. 299 (1996)

26

Browder v. Dir. Illinois Dept, of Corrections,
434 U.S. 257 (1978)....................................

6

Budinich v. Becton Dickinson & Co.
486 U.S. 196 (1988)......................

31

Chambers v. Mississippi,
410 U.S. 284 (1973)....

5

Citibank v. Saje Ventures II,
7 Haw. App. 130, 748 P. 2d 812 (1988)

3, 4, 21, 22

Christianson v. Colt Industries Operating Corp.,
486 U.S. 800, 815 (1988)...................................

6

Citibank N.A. v. Data Lease Fin. Corp.,
645 F.2d 333 (5th Cir. 1981)..............

4

Cohen v. Beneficial Industrial Loan, Corp.,
337 U.S. 541 (1949)......... ...........................

IX

passim

X

Fairfax's Devisee v. Hunter's Lessee,
1 U.S. (7 Cranch) 603 (1813) ....

15, 31

Firestone Tire & Rubber Co. v. Risjord,
449 U.S. 368 (1981).........................
Forgay v. Conrad,
47 U.S. (6 How.) 201 (1848)

29

21, 28, 30, 32, 33

Griggs v. Provident Consumer Discount Co.,
459 U.S. 56, (1982) (per curiam)...............

6,7

HSBC USA Bank, NA v. Townsend,
793 F.3d 771, 780 (7th Cir. 2015)

32

International Sav. and Loan Ass'n, Ltd. v. Woods,
69 Haw. 11, 731 P.2d 151 (1987)............................

28, 30

Kalb v. Feuerstein, 308 U.S. 433 (1940)

24

Liner v. Jafco, Inc., 375 U.S. 301 (1964)

3

Masterpiece Cakeshop, Ltd. v. Colorado Civil Rights Comm 'n,
138 S.Ct. 1719 (2018)..................................................................

3

MDG Supply Inc, v. Diversified Investments, Inc.
51 Haw. 480, 463 P. 2d 530 (1969).....................
51 Haw. 375, 463 P.2d 525 (1969), reh’g denied
cert, denied, 400 U.S.868 (1970).......................... .
Mathews v. Eldridge,
424 U.S. 319 (1976)

28
28, 32
..29,32

35

Michigan v. Long, 463 U.S. 1032 (1983)
Mills v. Green, 159 U.S. 651 (1895)
Mohawk Industries, Inc. v. Carpenter,
558 U.S. 100 (2009).........................
Mortgage Elec. Regis. Systems, Inc. v. Wise,
130 Haw. 11, 304 P. 3d 1192 (2012)...

x

3, 5, 27, 30
4

32, 33

25

XI

Nation Star Mortgage v. Boonstra,
CAAP No. 18-0000583, (6/12/19)
New York ex rel. Bryant v. Zimmerman,
278 U.S. 63 (1928)................................

35

5

Pacific R. Co. of Mo. v. Missouri Pacific R. Co.,
Ill U.S. 505 (1864).....................................

24

PennyMac Corp. v. Godinez,
148 Haw. 323, 474 P.3d 264 (2020)

35

Powell v. McCormick,
395 U.S. 486 (1969)

5

Rogers v. Alabama,
192 U.S. 226 (1904)

4, 31

Stone v. Immigration and Naturalization Servs.,
514 U.S. 386(1985).........................................
Traveler's Indemn. co. v. Bailey,
557 U.S. 137 (2009)............

8

25

Whiting v. The Bank of the United States,
38 U.S. (13 Pet.) 6 (1839).......................
Yee v. City of Escondido,
503 U.S. 519 (1992)..

28, 30

7

U.S. Constitution

4, 5, 9, 32

14th Amendment, Sec. 1

Federal Statutes
28 U.S.C. §1441

14

28 U.S.C. §1446

14

28 U.S.C. §2283

14

42 U.S.C. §3602

6, 33
xi

L

1

Xll

Title II of the Americans with Disabilities Act
42 U.S.C. §12131.............................................

6

Federal Rules of Appellate Procedure
6,7

FRAP 4(a)(4)
Federal Rules of Civil Procedure
FRCP Rule 54(b)

25

Federal Rule of Civil Procedure 59(e)

7

Federal Regulations
6, 14

28 C.F:R. 35.15(a) & (c) (2001)
Hawaii Revised Statutes
HRS §601-1

9

HRS §602-57

9

HRS §604-5

9

HRS §641-1

9
9, 21, 35

HRS §667-51
2003 Hawaii Legislature Notes on HRS §667-51

10

Hawaii Rules of Appellate Procedure
16

HRAP 4(a)(1)

16, 21

HRAP 4(a)(3)
HRAP 4(a)(5)

16

HRAP 40

16

Hawaii Rules of Civil Procedure
.passim

Rule 54(b)
Xll

%

IN THE
SUPREME COURT OF THE UNITED STATES
PETITION FOR WRIT OF CERTIORARI
Petitioner respectfully prays that a writ of certiorari issue to review the judgment below.
OPINIONS BELOW
[ ] For cases from federal courts: "n/a"
The opinion of the United States court of appeals appears at Appendix
the petition and is

to

[ ] reported at
J or,
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
\l
The opinion of the United States district court appears at Appendix
the petition and is

to

;or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[ ] is unpublished.
[ >3 For cases from state courts:
The opinion of the highest state court to review the merits appears at
Appendix
_03 to the petition and is
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
lg] is unpublished. 148 Hawaii 471 •,478 P.3d 296,
2020 WL 7421703.
The gpkBoaxB&the firmer ftpjectina Application for Writ.ot Certiorari
to the petition and is by the Hawaii Supreme Ct.
appears at Appendix
; or,
[ ] reported at
[ ] has been designated for publication but is not yet reported; or,
[x] is unpublished. 2021 WL 1 784799
1.

2
JURISDICTION

[ ] For cases from federal courts: "N/A"
The date on which the United States Court of Appeals decided my case
wad
[ ] No petition for rehearing was timely filed in my case.
[ 3 A timely petition for rehearing was denied by the United States Court of
Appeals on the following date:----------------------------- - and a copy of the
order denying rehearing appears at Appendix
[ ] An extension of time to file the petition for a writ of certiorari was granted
to and including------- ------------------- (date) on____ _____________ _ (date)
in Application No.__ A
The jurisdiction of this Court is invoked under 28 U. S. C. § 1254(1).
i

Oj For cases from state courts:
The date on which the highest state court decided my case was Deo. 10,2020.
A copy of that decision appears at Appendix m
r ^ Application for Writ of Certiorari
[ ] A timely $pe£raon>for
was thereafter denied on the following date:
and a copy of the order denying
May 5, 2034-------------appears at Appendix 05.
[ xj An extension of time to file the petition for a writ of certiorari was granted
to and includingoct.4/1 2;_2021 (date) on-niiy iq .angr iflgteHn 9n91
Application No. __ a Covid-1 9 Pandemic automatic eu-tray'** ^U2 l
extension letter from U.S.Supreme Court; Aug. 10, 2021

The jSfisSiction'ol'

underb l? a G sllww!"”'

2

3

JURISDICTION CONTIUED
When the higher court declines to exercise its authority, the judgment of the
intermediate court rather than the order of refusal by the higher court is the
judgment reviewable under §1257(a). An example is Masterpiece Cakeshop, Ltd. v.
Colorado Civil Rights Comm’n, 138 S.Ct. 1719 (2018) and likewise here.
Under Liner v. Jafco, 375 U.S. 301,304 (1964), the Court stated that the
question of mootness is itself a question of federal [constitutional] law upon which
[the] Court must pronounce a final judgment and it is not bound by a state court
ruling that a case has become moot. In Liner the federal question fell under the
National Labor Relations Board, which preempted the state court’s ruling. Id.
The majority the Court's decision Michigan v. Long, 463 U.S. 1032, 10411042 & n.7

(1983) created a presumption that federal law exists where a state court

federal law, or interwoven with federal
decision fairly appears to rest primarily on
law or grounds, or

when the adequacy and independence of any possible state law

ground is ambiguous

from the face of the opinion. Under the plain statement rule

the state need only make clear by a

plain statement in its judgment or opinion that

sed only for the purpose of guidance, and they do not
the federal cases are being u
compel the re

suit that the state has reached. Id. at 1041.

Under Michigan v
because the

. Long's presumption, the Court has jurisdiction here

Summary Disposition Order heavily relied on federal law to find

mootness, in its precedential case Citibank v.
133-134, 748 P

Saje Ventures II, 7 Haw. App. 130

2d 812, 815-816 (1988), was interwoven w

3

ith federal law, out-of-

V

\

4
state law and the treatise 47 Am Jur. 2d Judicial Sales §§55, 59-61 (1969), and
there was no plain statement included that federal law acted only as a guide and
did not compel the court finding mootness here.
Saje relied heavily on the United States Court of Appeals for the Fifth
Circuit's decision Citibank N.A. v. Data Lease Fin. Corp., 645 F.2d 333, 336 (5th Cir.
1981) and cases from the Ninth, Eleventh and Third Circuit that follow the general
rule that the rights of a good-faith purchaser to receive property acquired at a
judicial sale cannot be affected by the reversal of an order ratifying the sale where a
[supersedeas] bond has not been filed. The Court's decision Mills u. Green, 159 U.S.
651, 653 (1895) was cited as in accord. Further, in Data Lease, the Fifth Circuit
cited all of this Court's decisions on the issue of the jurisdictional exception to
mootness, which the Intermediate Court of Appeals bypassed.
The Court’s decision Rogers v. Alabama, 192 U.S. 226, 230-31 (1904) provides
that a state high court refusal to deal with the federal question is evasion and this
Court has jurisdiction to review that state high court's decision. Under Rogers v.
Alabama, the Court also has jurisdiction to review the Summary Disposition Order
to determine if the Intermediate Court of Appeals bypassed any antecedent federal
question to mootness.
The Court has jurisdiction to determine if mootness did not apply because
other requested relief are unresolved, under the Court's decision Powell v.
McCormick, 395 U.S. 486, 496 n. 8 (1969).

4

5
In Chambers v. Mississippi, 410 U.S. 284, 290 n.3 (1973), the Court found
absent any statutory limitation, the constitutional issue was properly before the
Court where in this criminal trial, a series of state court evidentiary rulings,
cumulatively showed that the state court’s refusal or failure to articulate a denial of
the accused’s 14th Amendment right of due process to a fair trial, even if the claim
was not raised until the motion for a new trial and where no constitutional
objections were made at trial.
In New York ex rel. Bryant v. Zimmerman, 278 U.S. 63,67 (1928), the Court
stated that if the record as a whole shows either expressly or by clear intendment
that the party brought the federal claim and the grounds for it to the attention of
the state court with fair precision, the Court may review the federal claim.
Even if the Court does not have jurisdiction under Michigan v. Long's
presumption, under Chambers and Zimmerman, the Court has or should have
jurisdiction to determine if the cumulative effect of Hawaii judicial foreclosure
proceeding violated Petitioner’s 14th Amendment, section one rights of due process
and equal protection rights under the United States Constitution.
The Court also has jurisdiction to determine if the Intermediate Court of
Appeals misapplied the law of the case to conclude the appeal was moot. In
Griggs v. Provident Consumer Discount Co., 459 U.S. 56, 61 & n.3 (1982) (per
curiam), the Court cited its decision Browder v. Dir. Illinois Dept, of Corrections,
434 U.S. 257, 264 (1978), that under the recently amended 1979 Federal Rules of
Appellate Procedure, Rule 4(a)(4) an appeal filed before or even after a timely filed

5

6
Rule 59(e) tolling motion that is still pending is a nullity because it has been
prematurely filed and has no effect. A new notice of appeal has to be timely filed to
preserve the litigants' rights, under Fed. R. App. Proc. 4(a)(4) (1979), after a
dispositional order to a Rule 59(e) motion is entered.
Under the Court's decision Christianson v. Colt Industries Operating Corp.,
486 U.S. 800, 815 (1988) citing Arizona v. California, 460 U.S. 605, 618
(1983)(dictum) that the law of the case "posits that when a court decides upon a rule
of law, that decision should continue to govern the same issues in subsequent stages
in the same case. However, the law of the case does not apply if the initial decision
is clearly erroneous and would work a manifest injustice; more importantly the law
of the case does not bind the Court in reviewing decisions below. Id. at 817-818.
Under Christianson and Masterpiece Cakeshop, Ltd., the Court should
conclude that the Intermediate Court of Appeal erroneously concluded that the law
of the case is its prior January 21, 2016 Summary Disposition Order, 2016 WL
299530, (Jan. 21, 2016)(SDO) when the Hawaii Supreme Court's November 1, 2016
Order Rejected Petitioner's Application for Writ of Certiorari, SCWC No. 120000870, 2016 WL 6804410 (Nov. 1, 2016), App. 1-3 & 5.
Under this Court's decision Yee v. City of Escondido, 503 U.S. 519, 534
(1992), "[o]nce a federal claim is properly presented, a party can make any
argument in support of that claim, parties are not limited to the precise arguments
they made below." (internal citation omitted).

6

7
Accordingly, under Yee, Petitioner may add to her previous argument below
that the law of the case is not the 20X6 Summary Disposition Order but the 2013
published decision in this case Ass 'n. of Condominium Homeowners at Tropics of
Waikele v. Sakuma, 131 Haw. 254, 318 P.3d 94 (2013) because under HRS §601-1
(2012) this portion of the 2012 appeal is not or should not be a nullity. The reasons
are: 1) even if the 2012 appeal was filed while Petitioner's June 7, 2012 Rule 59(e)
motion was still pending, the ruling that there is no final judgment from the order
confirming sale because Petitioner's Rule 59(e) motion was still pending a final
dispositional order is consistent with the 1979 amendment to FRAP Rule 4(a)(4)
under Griggs and Browder that an appeal filed while a Rule 59(e) motion is pending
is a nullity, 2) the drafters of the 1979 amendments could not have
anticipated it would take the trial court more than 3-1/2 years to enter a
dispositional order to a Rule 59(e) tolling motion like here , and 3) the
Hawaii Supreme Court had jurisdiction under Hawaii Revised Statute §601-1
(2012) to make any order necessary or appropriate in aid of its jurisdiction. See,
2015 WL 6835407, App. 26.4.
The Court, however, has or should have jurisdiction over this appeal under
the Court’s majority in Stone v. Immigration and Naturalization Services, 514 U.S.
386, 403 (1995). The majority in Stone held that a Rule 60(b) motions filed more
than ten days after judgment do not affect the finality of judgment, either when
filed before the appeal (no tolling), or afterwards (the appellate court jurisdiction is
not divested because a Rule 60(b) does not affect a judgment's finality). App. 88-111.

7

8
First, under Griggs, Petitioner did not appeal to this Court the Intermediate
Court of Appeal’s January 21, 2016 Summary Disposition Order, App. 26.5-25.7.
Second, under Stone, Petitioner filed her 2015 Rule 60(b) motion or even if
deemed a second Rule 59(e) motion, on December 8, 2015, which is more than ten
(10) days from the May 29, 2012 Order. However, the motion was within the ten
(10) day window that the order remained under the circuit court's jurisdiction under
Haw. R. Civ. Proc. Rule 62(a)'s automatic stay of proceeding to enforce a judgment,
App. 2. Under Stone, the pending Rule 59(e) motion in CAAP No. 12-0000870 or
SCWC 12-0000870, did not divest the appellate court from jurisdiction in this
appeal of Petitioner’s December 8, 2015 Motion in CAAP No. 16-0000627 because
the second Rule 59(e) motion is treated like a Rule 60(b) motion and a Rule 60(b)
motion does not affect a judgment's finality and the appellate court had the option
of merging the two appeals under Stone, 514 U.S. at 401.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Constitutional Provisions
Fourteenth Amendment of the United States Constitution, §1, in pertinent part:
"....No State shall make or enforce any law which
shall abridge the privileges or immunities of citizens of the United
States, nor shall any State deprive an person of life, liberty or property,
without due process of law; nor deny to any person within its jurisdiction
the equal protection of the laws."
Hawaii Revised Statutes
HRS §601-1(2012): Supreme Court, Jurisdiction, in pertinent part.
"The Supreme Court shall have jurisdiction and powers as follows: To make or issue
any order or writ necessary or appropriate in aid of its jurisdiction."
HRS §604-5 (2014): District Courts, Civil Jurisdiction, in pertinent parts.
"...(b) The district courts shall try and determine all actions without a jury, subject
to appeal according to law. Whenever a civil matter is triable of right by a jury and
8

9
trial by jury is demanded in the manner and within the time provided by the rules
of court, the case shall be transferred to the circuit court. If the demand is made in
the complaint and the matter is triable of right by a jury, the action may be
commenced in the circuit court if the amount in controversy exceeds $5,000...
(d) The district courts shall not have cognizance of real actions, nor actions in
which the title to real estate comes in question...."
HRS §602-57(2012). Courts of Appeal, Jurisdiction, in pertinent parts.
Notwithstanding any other law to the contrary, the intermediate appellate court
shall have jurisdiction, subject to transfer as provided in §602-58 or review on
application for a writ of certiorari as provided in section §602-59:
...(3) To make or issue any order or writ necessary or appropriate in the aid of its
jurisdiction, and in such case, any judge may issue a writ or an order to show cause
returnable fore the court.
HRS §667-57(2016) Foreclosures; 667-51.1: Appeals, in pertinent parts.
(a) Without limiting the class of orders not specified in §652-2 from which appeals
may also be taken, the following orders entered in a foreclosure case shall be final
and appealable:
(1) A judgment entered on a decree of foreclosure, and if the judgment
incorporates an order of sale or an adjudication of a movant's right to a deficiency
judgment, or both, then the order of sale or the adjudication of liability for the
deficiency judgment also shall be deemed final and appealable;
(2) A judgment entered on an order confirming the sale of the foreclosed
property, if the circuit court expressly finds that no just reason for delay exists, and
certifies the judgment as final pursuant to rule 54(b) of the Hawaii rules of civil
procedure; and....
(b) An appeal shall be taken in the manner and within the time provided by the
rules of court.
HISTORY: L. 2003, c89, Section 2. / Editor’s note.
2003 Haw. Sess. Laws, Act 89. Section 3, further provides: "Nothing in
this Act is intended to or shall be construed to limit appellate jurisdiction over
matters properly brought before the appellate courts such as the supreme court’s
recognition of appellate jurisdiction over an order denying a motion brought under
rule 60(b) of the Hawaii rules of civil procedure, as explained in the Casey decision
cited in section 1 (Beneficial Hctwaiii, Inc. v. Casey, 98 Haw. 159, 45 P.3d 339, 2002,
Haw. LEXIS 219 (2002), or the doctrine that an appeal from a final judgment
incorporates within its ambit all interlocutory orders and rulings leading to that
final judgment.
This section became effective May 27, 2003.
9

I

10
CIRCUIT COURT RULE 7. Form of Motions.
"Rule 7. (hi: Oppositions and reply. An opposing party may serve and file
counter affidavits and any memorandum in opposition to the motion, which shall be
served and filed not less than 8 days before the date set for hearing except as
otherwise provided by the Hawaii Rules of Civil Procedure or ordered by the Court.
...Unless permitted by another rule or statute, no party may file any papers less
than 3 days before the set for hearing unless otherwise ordered by the court."
STATEMENT OF THE CASE
The AOAO’s breach of the federal settlement precipitated this foreclosure.
On August 24, 2005 After Petitioner Patsy N. Sakuma (Petitioner) wrote to the
Association of Apartment Owners of the Tropics At Waikele (AOAO) through their
attorney Milton M. Motooka (Motooka) of Love Yamamoto & Motooka, LLC (LYM)
about their breach of the settlement of the related federal lawsuits. Petitioner
requested reimbursement of $500.00 for her fees and expenses to regain entry for
the City and County of Honolulu para-transit Handivan into the private driveway
to her Tropics condominium home to pick up her handicap elderly wheelchair-bound
mother when neighbors complained. App. 94-95. Petitioner started withholding her
monthly homeowner (HOA)'s fees again when the AOAO failed to pay her. Id.
The Association's original attorneys recorded a fraudulent lien, filed and
litigated a fraudulent collection and foreclosure suit against Petitioner.
In response, Motooka and a LYM associate attorney (collectively. Motooka
Parties) sued Petitioner using the name of Tropics (AOAO without "the" before
Tropics), not a misnomer, as plaintiff to collect her HOA fees in the state district
court, Civ. No. 1RC05-1-6232. App. 27-39, 95. Petitioner claimed she was not served
the summons and complaint. App. 95. A default judgment was entered against her
for $4,999.00, in favor of Tropics, a copy of which she later obtained. App. 27, 95.
10

11
On April 21, 2005, Motooka recorded a Lien for Unpaid Assessment under
the name Tropics against Petitioner's Tropics Home and had attached a legal
description that was missing 26 exceptions to title, including the Bank’s mortgage
and all of AOAO's governing documents, which Petitioner realized in reading the
Association's answering brief on first remand. App. 89, 122-1,132.2, 162.
The judgment was obtained bv fraud and violating Petitioner's 14th
Amendment due process rights under the U.S. Constitution,
On August 13, 2017, Motooka Parties filed a judicial foreclosure complaint
naming still another entity the Association of Condominium Homeowners of Tropics
at Waikele (Association), by its Board of Directors, as the plaintiff against
Respondent First Hawaiian Bank (Bank) and Petitioner to collect Tropic’s money
judgment by foreclosing against her Tropics Home in the state first circuit court in
Civ. No. 07-1487. App. 27-39.
The Complaint misrepresented that Petitioner was a resident of the city and
county of Honolulu, Hawaii. App. 28.
Motooka Parties attached, as exhibits to the complaint, the recorded, 2005
Lien, a recorded lis pendens on behalf of Tropics, and an Exhibit A legal description
of purportedly Petitioner's Tropics Home that was missing 26 exceptions to tile,
including the Bank's mortgage, and all of AOAO's governing documents cited in the
complaint, which Petitioner later argued. App. 37-39, 39.1-39.4.
Respondent First Hawaiian Bank (Bank) answered the Complaint. App. 4048. The Bank denied Petitioner was a resident of Honolulu, Hawaii, stated she

11

12
resided in Los Angeles, California, and that the Complaint failed to state a claim
against the Bank upon which relief can be granted. App.41-42.
Motooka Parties obtained an order to serve the Complaint by publication,
after their certified mail receipt card pursuant to its order to serve by certified mail,
was returned with a different signature. App. 2, 95,122 -122.1.
Petitioner did not answer the Complaint because she was not served and was
unaware of the foreclosure action. App. 95, 156. A default judgment was entered
against Petitioner. App. 53.
The Association moved for summary judgment, default judgment, judgment
and an interlocutory decree of foreclosure and for a hearing. Petitioner only learned
of the summary judgment motion when she received by U.S. mail the Bank’s
Statement of No Position, just over a week before the hearing. App. 95, 123, 156.
Petitioner did not receive the summary judgment motion until around April
23, 2008, less than 8 days before the hearing on April 30, 2008. App 95; 123.
Petitioner also had to pay a premium to file her motion for continuance by expressovernight mail a motion, as an out-of-state defendant and due to conflicting hearing
in Los Angeles, Petitioner was unable to attend the hearing because her motion for
a continuance was denied. App. 49-50; 95.
On June 10, 2008, the Findings, Conclusions, Default Judgment, Summary
Judgment, Interlocutory Foreclosure Decree, certified as final under Rule 54(b),
("Foreclosure Decree") were entered. App. 52-76.

12

13
On August 7, 2008, the Association filed a Motion for Approval of
Commissioner to auction without open houses and/or for further instructions, which
Petitioner did timely receive. App. 95, 123, 156.
On August 22, 2008, Petitioner filed an Amended Opposition to the motion
for approval. Petitioner raised the claim of the Association’s and Motooka Parties's
unclean hands in not serving her the Complaint in federal court, which prevented
her from removing the foreclosure suit to federal court under 28 U.S. C. §§1441 and
1446 like in the prior Federal Action and had relied on the missing recorded Amfac
Certificate in the legal description of her Tropics Home. App. 222-224. The Amfac
Certificate’s covenant that the Waikele housing developers build at least ten (10)
percent of housing for low-income and affordable homes for rent and purchase using
government financing was also a covenant that required the Waikele new housing
be built with accessible handicap designs, 28 CFR 35.151(a) & (c), under Title II of
the Americans With Disabilities Act, 42 U.S.C. 12131 et seq., App. 139-140.
Petitioner also asserted that all three exceptions to the Anti-Injunction Act, applied,
28 U.S. C. 28 U.S.C. §2283. App. 94-95; 99,101-102, 132-4 to 132-5, 133.
On September 23, 2008, the Circuit Court granted the Association’s Motion
for Approval. App. 62; 122.1-122.2.
On October 6, 2008 Petitioner timely filed a Reconsideration of the
September 23, 2008 Order raising she had not been served or had any notice of the
disputed certified U.S. Mail of the Summons and Complaint, adding the search

13

14
result of the U.S. Postal Office's tracking website showing no information on the
disputed certified mail as fraud on the court. App. 95, 122-1, 125, 156.
Meanwhile, on November 12, 2008, the Commissioner at the auction sold her
home to First Buyer. App. 95, 125.
On November 21, 2008, the Circuit Court entered its order denying
Petitioner's October 6, 2008 reconsideration concluding she did not raise anything
she could have raised earlier. App. 125.
On May 8, 2009, the Association moved for confirmation of the sale.
Petitioner filed her opposition reiterating that the foreclosure decree was obtained
by violating Petitioner's due process rights to receive service of the summons and
complaint by never mailing it to her as claimed. The Association filed its Reply.
App. 96, On Aug. 31, 2010, the Order Confirming Second Sale is entered. App. 212.
TRO Hearing Filed In Federal Court To Enioin The 2007 Foreclosure
On June 2, 2009, Petitioner filed a Temporary Restraining Order in the
federal court to enjoin the Association’s Motion for Confirmation of First Sale in the
U.S. District Court of the Hawaii District No. l:08-cv-00274-HG-LEK. App. 95,
132.1. On June 3, 2009, the TRO was heard. The Association's attorney attended
with the Commissioner and co-counsel for the AOAO. The TRO was denied. App.
95,128.
On June 4, 2009, the Association's hearing on its Motion for Confirmation of
Sale was heard in the circuit court. Petitioner attended. First Buyer's sale was
denied for being too low. Unbeknownst to Petition, at the adjournment, a recess

14

15
only occurred. A second auction was held. Petitioner's Tropics Home was sold to
Steve Valot for $160,000.00. The second sale was confirmed at the hearing, but
Petitioner had already left. App. 96,126-127.
On August 31, 2010, the Order Confirming Second Sale, Judgment, and
Notice of Judgment were entered. App. 12.11.
On September 10, 2010, Petitioner filed her Rule 59(e) tolling motion to the
August 31, 2010 Order Confirming Second Sale, based on further due process
violations in the non-receipt of filings in enclosing only the Notice of Judgment, but
not the August 31, 2009 Order Confirming Second Sale, with allegedly an inflated
postage amount from the private meter markings on the mailing envelope, the
unnoticed second auction sale, and other irregularities. App. 126-127.
Missed opportunity to overturn 3-1/2 years earlier ICA’s calculation of the
time to appeal from the automatic denial of a Rule 59(e) tolling motion.
On January 3, 2011, in a minute order the Circuit Court denied Petitioner's
2010 Reconsideration. App. 96. The Circuit Court stated that there was nothing
that was presented that could have been brought in opposition to the original
motion. App. 127, 156. On January 27, 2011, Petitioner filed her notice of appeal
as CAAP No. 11-0000054. App. 16, 128. Petitioner in her opening brief contended
that she did not receive the filings in this action. Id. On August 3, 2011, before the
answering brief was due, the Intermediate Court of Appeals entered an Order
Dismissing Appeal for untimeliness based on HRAP 4(a)(1) and (a)(3)'s automatic
denial as over 30 days from the 90-day deemed denial of her Rule 59(e) motion.
2011 Haw. App. LEXIS 830 (August 3, 2011).
15

i

16
On August 11, 2011, Petitioner filed a HRAP Rule 40 Reconsideration based
on HRAP Rule 4(a)(5) that defines "entry" as entry by the clerk’s office required
under HRAP 4(a)(3) an entry of an order of the deemed denial of the Rule 59(e)
motion. App. 211-221. On August 17, 2011, the Intermediate Court of Appeals
denied her Reconsideration concluding they have not overlooked or misapprehended
any points of law or fact, and therefore Petitioner’s August 11, 2011 Reconsideration
lacks merit. App 12.13, 2011 WL 3671865,
On November 3, 2011, Petitioner's opening brief is filed by overnight express
mail after her request was denied to file it by facsimile to avoid being late by one
business day. On November 22, 2011, the Hawaii Supreme Court entered it order
rejecting the application for untimeliness and by separate order denied her request
to file by facsimile by order dated the same day. App. 12.14; 2011 WL 5903865.
Second Appeal No. 12-0000145 dismissed for lack of jurisdiction due to
circuit court's refusal to enter an order disposing theRule 59(e) motion.
The foreclosure continued while Petitioner's first appeal was being
considered. On August 17, 2011, the Commissioner through the Association's new
attorneys from Porter McGuire Kiakono & Chow, LLP filed a motion for instruction
because the second buyer requested to withdraw his bid due to the delay in closing.
App. 96. The Commissioner again failed to add the unit number of Petitioner’s
adress so Petitioner did not receive it in time to attend the hearing and auction.
App. 129. The Commissioner also used a bad address for Petitioner and she did not
receive his subsequent report. On November 28, 2011 the Circuit Court entered its

16

17
Order Granting Second Buyers’ Withdrawal and directed the Commissioner to re­
auction Petitioner’s Tropics Home. Id.
On December 7, 2011, Petitioner filed a Motion to Vacate the action because
of continuing fraud in the non-mailing of the Motion for Instruction and subsequent
report by the Commissioner, the clerk telling Petitioner she only needed to file one
copy and then later two and entered them on the later date so her motion was not a
"tolling" motion. App. 128.
On July 18, 2012, the Intermediate Court of Appeals dismissed the appeal for
lack of jurisdiction because the Circuit Court had not yet entered a final, appealable
order to her Rule 60(b) motion and so her appeal was premature. App. 12.4-8; 130.
On October 16, 2012, the Hawaii Supreme Court's order rejected Petitioner's
2016 Application for Writ of Certiorari in SCWC 12-0000145 of her 2011 Rule 60(b)
motion to vacate. App. 12.9; 130.
Commissioner's Quitclaim Apartment Deed and Distribution premature
since there was no final judgment due to the pending Rule 59(e) motion.
On February 1, 2012, AOCH and PMKC moved to confirm the third-sale.
App. 66-82. On February 10, 2012 Bank filed a statement of position. App.71,179.
That same day, Petitioner filed her Opposition reiterating the irregularities and
non -receipt of the mailed commissioner's report and his August 17, 2011 motion
because he omitted Petitioner's unit number of her address, which he re-mailed
after the third auction. On February 13, 2012, Petitioner filed a motion for
continuance, for work conflict and out-of-state status. App. 95, 123.

17

18
On February 23, 2012, the hearing on AOCH's motion to confirm third sale
was held. Petitioner did not attend because she was unable since the Circuit Court
denied her Motion for Continuance. App.95,123.

The Bank asked that the sale be

subject to bank's mortgage. App. 70. The third sale was confirmed. App. 95, 123.
The minutes of the hearing stated Petitioner's Motion for Continuance was denied.
Id. Third Buyers were present. App. 68. The Circuit Court then reopened the
auction. The winning bid was $233,000.00 to Third Buyers, subject to bank's
mortgage. App. 68, 70.
On May 29, 2012, the Circuit Court entered the Order Confirming
Third Sale, Judgment, Judgment for Possession and Writ of Possession.
App. 66-87,130, 180.
On June 7, 2012, Petitioner filed her Rule 59(e) tolling motion contending the
third sale should be voided due to violations of her 14th Amendment section one of
the U.S. Constitution's due process and equal protection rights due to irregularities
in the third sale, being served only the notice of judgment of the May 29, 2012 order
confirming sale, App. 97, 137, in retaliation for asserting her associational handicap
rights under the Fair Housing Amendment Act, 42 U.S.C. 3601 et seq. and Title II
of the ADA,42 U.S. C. 12131 et seq. and contesting the constitutionality of the local
circuit rule 7(b), App. 254, due to the delay inter-state U.S. mail in leaving only four
(4), not eight (8) effective days to file an objection. App. 145-146; 26.1-26.4.

On July 2, 2012 recorded Commissioner’s Quitclaim Apartment Deed, App.
229-239, transferring Petitioner's Tropics Home only to two of the three Third
18

V

19
Buyers and attaching a legal description that added back the missing 26 exceptions
to title, alleging additional fraud on the court for the Hawaii Supreme Court to
consider. App. 132.2, 156.
On July 2, 2012, the Circuit Judge allowed the Commissioner and escrow to
distribute the funds from the third sale, allow the withholding either to without the
$129,746.89 surplus without entering a dispositional order to Petitioner's Rule 59(e)
motion, without rejecting the Commissioner’s certificate of service of his
Distribution Statement showing a bad address for Petitioner, and without any
accounting to Petitioner, the Circuit Court, or the Hawaii Supreme Court order to
show cause hearing, without any invoices from unknown attorney under the
Association line item showing $39,440.74 or citing any statutory authority for
withholding the surplus,. App. 83-87; 130.
2012 Appeal filed while Petitioner's Rule 59(e) motion wasstill pending^
Sometime in mid-October, 2012, Third Buyers forcibly removed Petitioner’s
siblings-tenants from Petitioner’s Tropics Home, while her June 7, 2012 Rule 59(e)
motion was still pending. App. 175-176. On October 16, 2012, Petitioner fried a.
third appeal, CAAP No. 12-0000870. In her notice of appeal, she stated that there
was no final order entered in her June 7, 2012 Rule 59(e) motion, but she just
received a call from Honolulu that her siblings had been forcible removed whom she
later found out were sheriffs and that she is still contesting the foreclosure of that
home. App. 97. Petitioner asserted appellate jurisdiction base on the court's
inherent authority to review the appeal to discern if they had jurisdiction, under

19

20
HRS §602-57 and the Forgay doctrine allowing for the immediate appeal to
foreclosed litigants when irreparable harm has resulted from a court's order. App.
97, 121.1-2.
Petitioner's 2012 Motion to Stay. Mandamus Petition Are Denied.
On January 11, 2013, the Intermediate Court of Appeals denied Petitioner’s
Motion for Stay of Appeal in CAAP No. 12-0000870. App.12.1-2. On January 24,
2012 the Hawaii Supreme Court denied Petitioner's mandamus petition without
prejudice for the Honorable Circuit Judge to enter a final judgment in her June 7,
2012 Rule 59(e) motion and December 13, 2011 Rule 60(b) motion to vacate, stating
while Petitioner is entitled to a ruling on the motions, she was not entitled to an
extraordinary writ at this time because she did not lack an alternative means to
redress the alleged wrong. App. 12.3; 2012 WL 6929416.
2012 Appeal initially dismissed like 2011 appeal for missing appeal
deadline under HRAP 4(aH3Vs automatic denial of Rule 59(e) motion.
On January 11, 2013, the Intermediate Court of Appeals entered an order
dismissing appeal for lack of jurisdiction for untimeliness since the appeal in CAAP
No. 12-0000870 was not filed within the thirty day appeal deadline after the ninetyday automatic "deemed denial" of the filing of the June 7, 2012 Rule 59(e) motion
under Haw. R. App. Proc. Rule 4(a)(3) and 4(a)(1), which was due on September 5,
2012. App. 16; 2013 WL 150175 at *1 (Haw. App. Jan. 11, 2013)(order).
On March 15, 2013, pursuant to leave, Petitioner filed her Amended, third
Application for Writ of Certiorari, which the Hawaii Supreme Court decided in a
published opinion reported at 131 Haw. 254, 318 P. 3d 94 (2013), App. 13-20. The
20

21
majority of the Hawaii Supreme Court concluded it had jurisdiction because no final
order had ever been entered on Petitioner's June 7, 2012 Rule 59(e) motion. J.
Nakayama dissenting disagreed and that Haw. R. App. Proc. 4(a)(1) and (a)(3) were
jurisdictional and nonwaivable. App. 17-20. The Hawaii Supreme Court vacated the
judgment on appeal and remanded to the Intermediate Court of Appeals for further
review consistent with the opinion.131 Haw.at255,318 P.3dat97.
First Remand, the ICA again dismisses anneal as moot like in 2013.
In her 2014 briefs on first remand, Petitioner contended new allegations of
fraud in filing the foreclosure under a false name and that the Association did not
exist so it lacked standing. App. 131,140-142. Further Petitioner contended a total
want of subject-matter jurisdiction of the circuit court due to the missing 26
exceptions to title in the legal description and that only the state district court, if at
all, had jurisdiction, based on the exclusive dollar amount jurisdiction of all matters
under $5,000 under HRS §604-5 (2014). App. 133, 145-148.
On July 21, 2015, the Intermediate Court of Appeals entered a Summary
Disposition Order, dismissing the case as moot. 2015 Haw. App. LEXIS 377, 136
Haw. 25, 356 P.3d 1045 (2015); App. 26.1-26.3. The Intermediate Court of Appeals
again concluded it could not provide her with adequate relief for the same reasons
in its 2013 SDO and dismissed the appeal as moot and Petitioner's contentions
otherwise were meritless, relying on the same case Citibank v. Saje Ventures, II. Id.
On September 28, 2015, Petitioner filed her fourth application for writ of
certiorari on first remand. In her 2015 Application, since over two (2) years had

21

22
passed and still there was no final order to her June 7, 20X2 Rule 59(e) motion,
Petitioner alleged new fraud on the court to the Hawaii Supreme Court by
submitting into the record: 1) in the recorded July 2, 2012 Commissioner's
Quitclaim Apartment Deed, App. 229-239, showing the switched legal description
adding back the 26 missing exceptions to title, 2) a second recorded July 2, 2012
Quitclaim Apartment Deed that same day between a third buyer and the two
buyers listed in the Order Confirming Third Sale, App. 240-251, and three buyers in
the Distribution Statement, App. 85, and 3) the public record from the Division of
Real Property Assessment web search, App. 227, showing the payment of $1000 by
third buyer to the other two buyers in recording a second quitclaim apartment deed.
The 2015 Order Accepting Application ordered the ministerial act of an
entry of the automatic "deemed denial.”
On November 6, 2015, the Hawaii Supreme Court, bypassed the new fraud
allegations and entered its Order Accepting Application for Writ of Certiorari for a
second remand, in SCWC 12-0000870, of temporary remand to the Circuit Court to
order only the ministerial act of entering an order of its 2012 "deemed denial" of
Petitioner's Rule 59(e) motion. See, 2015 WL 6835407, App. 26.4.
On January 21, 2016, on second remand in CAAP No. 12-0000870, without
ordering any further briefing, the Intermediate Court of Appeals sua sponte entered
its Summary Disposition Order denying Petitioner's purported reconsideration of
the November 30, 2015 Order. App. 26.5-26.6. On February 16, 2016, the
Association filed a Second Motion for Fees and Costs. On February 25, 2016,
Petitioner filed an opposition. On April 20, 2016, the Intermediate Court of Appeals

22

23
entered its Order Granting In Part and Denying In Part the Association’s Fee
Request.
On September 21, 2016, Petitioner filed her Application for Writ of Certiorari
contesting the April 2016 Fee Order and reasserting her claims in her 2015
Application for Writ of Certiorari. On November 1, 2016, the Hawaii Supreme
Court in SCWC 12-0000870 entered its Order Rejecting Application of Writ of
Certiorari filed by Petitioner on September 21, 2016. App. 26.7; 2016 WL 6804410.
The Order Confirming Third Sale Became Final 3-1/2 Years Later.
On November 30, 2015, on temporary remand from the Intermediate Court of
Appeals, the Circuit Court finally entered its order of its 2012 deemed denial of
Petitioner's Rule 59(e) motion. App. 11-12. On December 8, 2015, Petitioner filed a
second Rule 59(e) motion or Rule 60(b)(4) and 60(b)(fraud on the court) motion. App.
9. On March 22, 2016, the Circuit Court entered its order denying Petitioner's
December 8, 2015 Motion to Reconsider the November 30, 2015 Order, App.8-10.
The circuit court judge noted no oppositions by opposing counsel were filed. App. 810. On August 15, 2016 the circuit court entered its order denying Petitioner's April
1, 2016 reconsideration stating the record and files were reviewed and good cause
appearing were the reasons for the denial. App. 6-7.
A Four Year Delay In Entering Summary Disposition Order Dismissing
Current 2016 Appeal For The Same Reason Of Mootness As In 2013.
On September 16, 2016, Petitioner filed a notice of appeal, CAAP No. 160000627, from the August 15, 2016 Order denying reconsideration of the March 22
2016 Order denying Petitioner's December 8, 2015 Reconsideration to vacate the
23

24
November 30, 2015 Order entering the 2012 deemed denial of Petitioner’s June 7,
2012 Rule 59(e) motion. In Petitioner's Reply Brief to the Association's Answering
Brief, she attached to the appendices four (4) other liens or lis pendens of other
AO AO homeowners that were recorded using the same false name of Tropics and
the same legal description missing the 26 exceptions to title. In the appendix to
Petitioner's Reply Brief to Bank’s Answering Brief she attached a Lis Pendens of
another AOAO homeowner showing AOAO, not Tropics as the lienholder, but with
the same missing 26 exceptions title in its legal description, all which were recorded
in the state official records in the Bureau of Conveyances.
About two years after filing her September 16, 2016 Notice of Appeal, on
February 6, 2019, the Intermediate Court of Appeal’s staff attorney, Randall A.
Pinal, replied to Petitioner's inquiry that the court would issue a decision when it
has completed its review of her appeal. App. 112.
On December 18, 2020, the Intermediate Court of Appeals dismissed the
appeal as moot citing the same cases to conclude again that Petitioner's contentions
were meritless. App 2-3. On May 4, 2021 the Hawaii Supreme Court entered its
Order Rejecting Application for Writ of Certiorari. App. 5.
REASONS FOR GRANTING THE PETITION
The Summary Disposition Order conflicts with the Court's decision Kalb u.
Feuerstein, 308 U.S. 433, 439-440 (1940) that allowed a collateral attack of subjectmatter jurisdiction in the rare instance based on debtor’s petition for relief was

24

25
pending in bankruptcy court, which court had exclusive jurisdiction, and under the
federal statute affirmatively divested the foreclosure court from jurisdiction.
The Summary Disposition Order conflicts with the Court’s decision Pacific R.
/

Co. of Mo. v. Missouri Pacific R. Co., Ill U.S. 505 (1864) holding that a subsequent
suit brought to reverse for fraud the foreclosure decree before the court which made
the prior judgment is a continuation of the former suit on the question of
jurisdiction, so the challenge is a direct attack on the judgment.
The Court's decision Traveler's Indemn.Co. v. Bailey, 557 U.S. 137, 148, n. 6
(2009), noted that Kalb, and the Court’s decision U.S. v. U.S. Fidelity & Guaranty
Co., 309 U.S. 506, 514 (1940) were rare situation where subject-matter jurisdiction
may be collateral attacked. Further that the Restatement (Second) of Judgments,
Section 12 p. 115 (1980), describing three instances where subject-matter
jurisdiction may be collaterally attacked. See, Traveler's Indemn.Co., 557 U.S. at
148 & n. 6.
The Summary Disposition Order also conflicts with exception one of the
Restatement (Second) of Judgments Section 12 p. 115 (1980) to allow a collateral
attack on judgment: " The subject matter of the action taken while the case was
exclusively with the bankruptcy court was plainly beyond the [foreclosingjcourt’s
jurisdiction that its entertaining the action was a manifest abuse of authority."
In Mortgage Electronic Registration System, Inc. v. Wise, 130 Haw. 11, 17,
304 P.3d 1192, 1198 (2013), the Hawaii Supreme Court explained that the Hawaii
judicial foreclosure proceeding is treated as two separate proceedings for res

25

\ »,

26
judicata purposes: 1) the first, the foreclosure decree that incorporates an Order of
Sale and is certified a final judgment under HRCP 54(b), and 2) all other orders.
The Summary Disposition Order also conflicts with the Court's decision
Behrens v. Pelletier, 516 U.S. 299 (1996) allowing two appeals, at successive stages
of the litigation, from an order denying the collateral order of a "qualifiedimmunity" defense. Under the Court's leading case, Cohen v. Beneficial Industrial
Loan, Corp., 337 U.S. 541, 546 (1949), collateral orders are a small class of pre­
judgment orders that fall into a category of final orders in that they finally
determine claims of right separable from, and collateral to, rights asserted in the
underlying action, too important to be denied review and too independent of the
cause itself to require that appellate consideration be deferred until the whole case
is adjudicated.
The Summary Disposition Order can only be correct to bar this Court's
decisions Kalb and U.S. Fidelity & Guaranty Co., the Restatement 2d on
Judgments' allowing a collateral attack of subject-matter jurisdiction, and bar a
direct attack of the foreclosure decree based on fraud under this Court decision
Pacific R. Co. of Mo. brought in the same court that issued the decree, if the
Intermediate Court of Appeals applied an impermissible offensive use of the
collateral order doctrine. The reason is one of the elements of a collateral order is
that it is unreviewable if not appealed on direct review within 30 days of its entry
under Cohen, 377 U.S at 542. Therefore, the question of whether the collateral order
doctrine maybe be offensively applied against a foreclosed defendant to bar her

26

27
collateral attack of a foreclosure decree incorporating an order of sale from her
appeal of the later order confirming sale is the antecedent question as to whether
this appeal is moot.
The Hawaii Supreme Court in Beneficial Hawaii Inc. u. Casey, 98 Haw. 159,
45 P.3d 359 (2002) prospectively concluded that an interlocutory foreclosure decree
that incorporates an order of sale and is certified under Rule 54(b) as a final
judgment is non-reviewable if a party later challenges the foreclosure decree that
incorporates an order of sale after its initial 30-day appeal period from subsequent
orders in the foreclosure proceeding. The Casey court also stated that a party must
appeal an order denying a Rule 60(b)(l)-(3) motion within 30-days after its entry.
See, Casey, 98 Haw. at 166, 45 P. 3d at 366.
The 2003 Hawaii Legislature explained the Casey decision in their goal to
carve out the special appellate jurisdiction HRS §667-57 (2016) for foreclosures
because Casey apparently could be read but should not be read as eliminating the
appellate court's power to consider a Rule 60(b) motion for relief or to consider the
doctrine of merger of interlocutory orders into the final order in the foreclosure
context because a collateral order by its own definition is unreviewable after final
judgment in the underlying action. See, infra, Statutory Provisions Section.
The Court has jurisdiction to review the Intermediate Court of Appeals'
bypassing of this antecedent question of the offensive use of the collateral order
doctrine against a foreclosed defendant to collaterally attack the foreclosure decree
that incorporates an order of sale from the later order confirming sale under Rogers

27

\\

28
v. Alabama because the antecedent question to mootness itself became a federal
question under the presumption of Michigan v. Long, 453 U.S. at 1043.
The Hawaii Supreme Court in Casey primarily if not exclusively relied on
federal law, rather than an independent and adequate state law, to reach its legal
conclusion that it could prospectively apply the collateral order doctrine
offensively to the foreclosure decree against Petitioner as the defendant in the
underlying foreclosure because she did not appeal the foreclosure decree. The
reason is Casey relied on International Sav. and Loan Ass’n, Ltd. v. Woods, 69 Haw.
11, 15, 20, 731 P.2d 151, 154, 157 (1987). Woods, in turn, relied exclusively on the
Court's decisions:
1) Cohen v. Beneficial Industrial Loan Co., 377 U.S. 542 (1949) as followed in
the Hawaii Supreme Court decision MDG Supply Inc. v. Ellis, 51 Haw. 480, 481482, 463 P.2d 530, 532 (1969) to conclude a foreclosure decree that incorporates an
order of sale within the decree is a final order, for appellate jurisdiction based on
the collateral order doctrine, even if there are other orders to be decided in Hawaii's
bifurcated judicial foreclosure proceeding;
2) The Hawaii Supreme Court in MDG Supply Inc., 51 Haw. 375, 463 P. 2d
525 (1969), reh'g denied, 51 Haw. 479, 463 P.2d 525 (1969), cert, denied, 400 U.S.
868 (1970) had also followed the reasoning for finality in this Court’s decisions
Forgay v. Conrad, 47 U.S. (6 How.) 2001 (1848) allowing appellate review even
when there is no final judgment but where irreparable harm to the foreclosed on
defendants would result if appeal is denied to dispute a decree to set aside the

28

!

w
29
defendants' deed as fraudulent transfers and order of immediate transfer of the
property and slaves to the equivalent of today the trustee in bankruptcy, Woods, 69
Haw. 69 at 16, 731 P.2d at 155; and
3) Whiting v. The Bank of the United States, 38 U.S. (13 Pet.) 6 (1839) that a
decree foreclosing a mortgage and directing the sale of the mortgaged premises was
a final decree and that the pending return and confirmation of sale were merely
incidents to enforce the judgment so the defendant did not have to wait to the end of
the proceeding to appeal.
In Woods, 69 Haw. at 15, 731 P.2d at 154, the Hawaii Supreme Court
correctly applied the collateral order defensively to the defendants Woods to allow
their appeal and to deny International Savings' objection that the circuit court's
order of summary judgment and order to foreclose on the mortgage, were not final
because there were still pending multiple claims based on the multiple parties in
the action that would render any pending order not merely enforcing the judgment.
However, the Woods Court in prospectively stating that a litigant who "would
like to challenge the validity of a decree of foreclosure and an order for the sale of
the foreclosed property in a multiple-party or multiple-issue setting must seek a
certification of finality pursuant to Rule 54(b). He will be deemed to have waived
his right to appeal the trial court's action if he does not seek review when any injury
allegedly caused by the court's judgment and order may still be repaired...." applied
an offensive use of the collateral order doctrine.

29

30

The Summary Disposition Order therefore conflicts with this Court’s decision
Firestone Tire & Rubber Co. v. Risjord, 449 U.S. 368, 375 (1981) that the collateral
order doctrine applied in the Court's decisions: 1) Cohen v. Beneficial Industrial
Loan, Corp., 337 U.S. 541, 546 (1949)(circuit order reversing the trial court's order
refusing to apply a state statute requiring the posting of security to cover the costs
to defend a shareholder's derivative lawsuit); 2) Whiting v. Bank of the United
States, 13 Pet. 6, 15 (1839) and 3) 3) Forgay u. Conrad, 6 How. 201, 203 (1846).
The Court's later decision Ashcroft v. Iqbal, 556 U.S. 662,671-675 (2009) held
that it had jurisdiction because an order denying a qualified immunity defense is a
collateral order and is immediately appealable by the defendants—high-ranking
government officials, even if intertwined with the merit question because it turns on
a question of law—whether the order was a collateral order.
This Court should grant the Writ to resolve the important question of
whether the collateral order doctrine in the context of foreclosures may only be
applied defensively or if it may be offensively applied because the collateral order
doctrine question is the antecedent federal question under Michigan and Long,
which the Intermediate Court of Appeals and the Hawaii Supreme bypassed to
reach the legal conclusion of the initial federal question under Michigan v. Long, as
to whether this case is moot and that Petitioner's contentions that mootness have
no merit, because the Court is the ultimate judge of mootness of a federal question
under Rogers u. Alabama.

30

7
i.
K.

31
If the Court accepts this Writ, the Court would be able to announce a brightline rule of finality of a foreclosure decree as a collateral order if only used by
defendants in a foreclosure suit. This is consistent with the Court's decision
Budinich v. Becton Dickinson & Co., 486 U.S. 196, 202 (1988) to have bright-line
rules of appellate jurisdiction.
The Court may apply its decision Fairfax's Devisee v. Hunter's Lessee, 11 U.S.
603 (7 Cranch) (1813), to overturn outright the inadequacy of state of Hawaii's
highest court's interpretation of state property law in Beneficial of Hawaii Inc. v.
Casey, 98 Hawaii 159, 164-165, 45 P. 3d 359, 364-365 (2002), if it concludes Casey
misconstrued Hawaii property law on the collateral order doctrine in applying it
offensively. The reason is the Hawaii Supreme Court's prior decision applied the
collateral order doctrine to a foreclosure decree only defensively in MDG Supply Inc,
v. Diversified Investments, Inc., 51 Haw. 375, 463 P.2d 525 (1969), reh'g denied 51
Haw. 479, 463 P.2d 524 (1969), cert, denied, 400 U.S. 568 (1991).
The new Harvard University's 2021 State of Nation's Housing Report stated
that as of March 2021, 2.1 million homeowners are still behind on the mortgages
after deducting the millions other homeowners who have started repaying or some
even up to date with their lenders. App. 224-226. With the moratorium on
foreclosures and evictions that has ended on July 31, 2021, 8 million households
face foreclosure or evictions.
In light of the potential tidal wave of foreclosure actions in the state and
federal court system due to the ending of the Covid-19 Pandemic moratoriums on

31

32
mortgage foreclosures and evictions, if the Court accepts the Writ, the Court could
help litigants and the lower courts better determine when a collateral order applies
in the foreclosure context. This is because it is like a one-way street—only
defendants could use the collateral order doctrine to appeal in foreclosure suits.
In answering this federal question, the Court in effect would be answering
the question whether Mohawk Industries, Inc. v. Carpenter, 558 U.S. 100 (2009)
effectively overturned the Forgay doctrine, which was raised by the majority of the
United States Court of Appeals for the Seventh Circuit in HSBC Bank USA, NA v.
Townsend, 793 F.3d 771, 780 (7th Cir. 2015) but left it for another day. The answer
should be clear. Mohawk was not a foreclosure suit so Mohawk did not overturn the
Forgay doctrine.
The Court should accept the Writ also to decide the important federal
question of whether the Intermediate Court of Appeals and the Hawaii Supreme
Court bypassed the important federal question of whether the cumulative effect of
the state foreclosure proceeding in this case have violated Petitioner's due process
rights and equal protection rights under the 14th Amendment, §1 of the U.S.
Constitution by:
1) The state courts' refusal to review of Petitioner's jurisdictional objections to
collaterally attack the circuit court's total want of jurisdiction under the foreclosure
decree from subsequent orders under Rule 59(e) or Rule 60(b) and holding a
disposition of her motions in limbo for over 3-1/2 years precluding an appeal to this
Court, because there was no final judgment or final order to her June 7, 2012 Rule

32

t. \

.. *

i.

33
59(e) motion for relief from the May 29, 2012 order confirming sale and prior
foreclosure decree’s order of sale and her prior December 13, 2011 Rule 60(b) motion
for void judgments and fraud on the court until November 15, 2015:
• Taking almost 3-1/2 years to require the Intermediate Court to
temporarily remand to the circuit court to enter a dispositional order to Petitioner’s
timely Rule 59(e) tolling motion pursuant to the Hawaii Supreme Court’s November
6, 2015 Order Accepting Petitioner’s Application for Writ of Certiorari, on Second
Remand, App. 26.4, 2015 WL 6835407;
• The July 18, 2012 Intermediate Court of Appeal's Order Dismissing Appeal
in CAAP No. 12-0000145 for lack of jurisdiction because there was no dispositional
order to Petitioner's 2011 Amended Rule 60(b) Motion to Vacate, App. 12.5-12.8,
2012 WL 2924102;
•

The October 16, 2012 Order rejecting an application for writ of certiorari

to the Intermediate Court of Appeals to reverse the July 18, 2012 Order Dismissing
Appeal for lack of jurisdiction, under Petitioner's undisposed of Rule 60(b) motion,
SCWC No. 12-0000145, App. 12.9, 2012 WL 4893713;
• The January 24, 2012, Hawaii Supreme Court Order denying Petitioner's
November 30, 2012 Application for Mandamus Relief without prejudice, 2012 WL
6929416, App. 12.3, even after three (3) years the Circuit Court still had not entered
a disposition order to Petitioner’s Amended December 13, 2011 Rule 60(b) Motion or
June 7, 2012 Rule 59(e) tolling motion;

33

1.1

c'
34
• In Deutsche Bank Nat.l Trust Co. v. Amasol. 135 Haw. 357, 358-359, 351
P.3d 584, 585-586 (2015), App. 21-26, clarifying the published decision in this case,
131 Haw. 254, 318 P. 3d 95 (2013) because there was no dispositional order entered
to the Rule 60(b) motion and the same applied in Amasol Only the Rule 59(e)
motions were properly before the Court in both of these cases;
• PennyMac Corp. v. Godinez, 148 Haw. 323, 474 P. 3d 264, n. 7 (2020), the
Supreme Court admitted that the Intermediate Court of Appeals had been
erroneously dismissing appeals to a timely filed Rule 60(b) motion in foreclosure
actions based on res judicata: Bank of America v. Panzo, CAAP 14-881356, 2017 WL
1194002; NationStar Mortgage v. Boonstra, CAAP No. 18-0000583 (6/12/19);
2) The validity of service of process by the Association’s and its attorneys',
and the state court appointed foreclosure Commissioner, infra, see, Mathews v.
Eldridge, 424 U.S. 319, 333 (1976); and
3) The adequacy of the other foreclosure procedures regarding:
• A 3-1/2 year delay in correcting the calculation of the appeal due date
from a HRAP Rule 4(a)(3) deemed denial of a Rule 59(e) motion for relief from the
2010 Order Confirming Second Sale, when if corrected in 2011,Jby accepting
Petitioner’s 2011 Reconsideration of 2011 SDO dismissing appeal as untimely, App.
211-221. 2011 WL 3671965. Ann. 12.13. it could have vacated the foreclosure
action and void the foreclosure decree when there was no final order
confirming sale; App. 12.13, 2011 WL 3671965, App. 211-221; 2011 WL 4893713;
Dec. 1, 2011 Hawaii Supreme Court Order rejecting filing by facsimile;

34

■>

*

35
• The repeated denial of a continuance to Petitioner an out-of-state
defendant to attend the important hearings in this foreclosure case, App. 49-51
(05/15/08 Order Denying M. for Conti, of 04/30/08 SJ Hearing);
• Not requiring the circuit judge to approve the Commissioner's Quitclaim
Apartment Deed as part of the Motion and Order for Confirmation of Sale to avoid
fraud on a party and the court by officers of the court; App. 227-229-239; 240-250;
• Allowing the circuit judge's unilateral decision, without comment or
oversight by the Intermediate Court of Appeals or Hawaii Supreme Court, to
withhold the $129, 746.59 foreclosure surplus in an unknown escrow without prior
notice or opportunity for another hearing since July 2, 2012 to the present, over
nine (9) years without any accounting; App. 85.
CONCLUSION
The petition for certiorari review should be granted.
Respectfully submitted,

l

Patsy N. Sakuma, Petitioner Pro Se
1232 Makaloa Street #7
Honolulu, Hawaii 96814
Tel. 808-454-3171
Dated: September 10, 2021

35

i

